No.19-348
IN THE

ST.JAMES SCHOOL,

Petitioner,

V.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Daniel P. Kearney, Jr., a member
of the bar of this Court, certify that the accompanying Brief for Amicus Curiae Asma T.
Uddin in Support of Petitioner contains 4,284 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
Executed on October 17, 2019.

DANIEL P. KEARNEY,JR.
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

